No.

 

 

IN THE

Supreme Court of the Anited States

DENISE A. BADGEROW, PETITIONER
v.
GREG WALTERS, ET AL.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

 

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,992 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 12, 2021.

Colin Casey bn

Wilson-Epes Printing Co., Inc.
